Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Cooperative Agreement 
with
the University of Maine at AugustaAugusta, Maine


GR-70-03-008


September 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the Regional Community Policing Institute (RCPI) cooperative agreement with the University of Maine at Augusta (UMA).  The cooperative agreement was awarded by the U.S. Department of Justice (DOJ), Office of the Community Oriented Policing Services (COPS) to the University of Maine at Augusta.  The purpose of the agreement was to expand and enhance community-policing training offered by UMA to communities and law enforcement agencies.  Between September 1997 and September 2000 the UMA was awarded a total of $999,900 to focus on educating, training, and providing technical assistance to COPS grantees in four primary areas: (1) increase the number of community policing officers on the streets, (2) promote the implementation of departmentwide community policing in law enforcement agencies across the country, (3) help develop a training infrastructure that will help institutionalize and sustain community policing after federal funding has ended, and (4) demonstrate and evaluate the ability of agencies practicing community policing to significantly improve the quality of life by reducing levels of violence, crime, and disorder in communities.
We found the University of Maine at Augusta to be in non-compliance with the cooperative agreement.  We reviewed the UMA's compliance with the agreement conditions and found weaknesses in three areas tested:  reporting, drawdowns, and agreement expenditures.  As a result of the deficiencies, we question costs of $8,545 in funds received.1

The UMA submitted only 13 of the 36 required monthly progress reports, one of which was untimely.
Funds were not posted timely to the cooperative agreement account.
The UMA could not provide authorization for 6 of the 38 sampled direct expenditures charged to the agreement.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings.